APPENDIX

ia
APPENDIX
TABLE OF CONTENTS
United States Court of Appeals for the Tenth Circuit,
Opinion in 19-5005
Issued December 6, 2019…………………………………………………………………….1a

United States District Court for the Northern District of Oklahoma,
Order for Judgment Granting Motion to Dismiss
in 18-cv-408-JED-FHM
Issued November 30, 2018…………………………………………………………………13a

United States Court of Appeals for the Tenth Circuit
Order Denying Petition for Panel Rehearing in 19-5005
Issued February 24, 2020……………………………………………………………….…20a
United States Court of Appeals for the Tenth Circuit
Mandate Letter in 19-5005
Issued March 3, 2020……………………………………………………………………….22a
18 U.S.C. § 1841……………………………………………………………………………..24a
21 Oklahoma Statutes § 21-652………………….……………………………………….26a
21 Oklahoma Statutes § 21-691…………..………………………………………..……..28a
63 Oklahoma Statutes § 63-1-730……………………………………………………...…28a

1a
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
______________
No. 19-5005
______________
JANE DOE, minor child who is unborn, by and
through her father and next friend, John Doe,
Plaintiff-Appellant
v.
MIKE HUNTER, in his official capacity as Oklahoma
Attorney General; KEVIN STITT, in his official capacity
as Oklahoma Governor; WILLIAM P. BARR, in his official
capacity as U.S. Attorney General; U.S. DEPARTMENT
OF JUSTICE; UNITED STATES OF AMERICA,
Defendants – Appellees
________________
On Appeal from the United States District Court
for the Northern District of Oklahoma
District Court No. 4:18-cv-00408-JED-FHM
District Judge: The Honorable John E. Dowdell

Before: TYMKOVICH, Chief Judge, KELLY and HARTZ, Circuit Judges
Decided: December, 6, 2019
___________________
ORDER AND JUDGMENT
____________________

2a
Timothy M. Tymkovich, Chief Judge
*** After examining the briefs and appellate record, this panel has
determined unanimously that oral argument would not materially assist in
the determination of this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R.
34.1(G). The case is therefore ordered submitted without oral argument. This
order and judgment is not binding precedent, except under the doctrines of
law of the case, res judicata, and collateral estoppel. It may be cited, however,
for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R.
32.1.
Jane Doe, an unborn child of less than 22 weeks' gestational age acting
through her father, sought to challenge the exceptions for legal abortions in the
fetal-homicide laws of the United States and Oklahoma.1 The district court
dismissed for lack of Article III standing. Exercising jurisdiction under 28 U.S.C. §
1291, we affirm.
I. BACKGROUND
A. Legal Background

1

The parties have not informed the court of when or whether Doe was born; the governments do not

know her status, and Doe's father has remained silent on the matter. We do not consider the case
moot, however, because due to the short period of human gestation, cases involving abortion fall
within the exception for matters capable of repetition yet evading review. See Roe v. Wade, 410 U.S.
113, 125 (1973).

3a
In Roe v. Wade, 419 U.S. 113 (1973), and Planned Parenthood of Southeastern
Pennsylvania v. Casey, 505 U.S. 833 (1992), the Supreme Court concluded that
before a fetus is viable, a pregnant woman has a due process right to choose to have
an abortion without undue interference of the state.
After Roe and Casey were issued, both the United States and Oklahoma
enacted statutes that criminalize the killing of an unborn child. See 18 U.S.C. §
1841(a) (providing that conduct that violates listed federal criminal provisions "and
thereby causes the death of, or bodily injury . . . to, a child, who is in utero at the
time the conduct takes place, is guilty of a separate offense under this section");
Okla. Stat. tit. 21, § 691 (defining homicide as "the killing of one human being by
another" and defining "human being" to include an "unborn child"). In compliance
with Roe and Casey, both statutes explicitly except legal abortions, performed with
the consent of the mother, from the conduct that is criminalized. See 18 U.S.C. §
1841(c); Okla. Stat. tit. 21, § 691(C)(1). Doe seeks to challenge these statutory
exceptions (the Exceptions).
B. Doe's Claims
Doe alleges that the Exceptions: (1) violate her Fifth and Fourteenth
Amendment rights to equal protection based on differential treatment of born and
unborn human beings and among unborn human beings; (2) violate her Fifth and
Fourteenth Amendment rights to substantive due process, by depriving her of the
right to life; (3) violate her Fifth and Fourteenth Amendment rights to substantive
due process, by depriving her of the rights to liberty and bodily integrity; and (4)

4a
violate 42 U.S.C. § 1983 by depriving her of the rights to equal protection, life,
bodily integrity, and to be free from discrimination.2 As relief, she requests: (1) a
permanent injunction prohibiting the defendants "from enforcing or preserving the .
. . Exceptions or taking other similar discriminatory action against [Doe] or other
minor children who are unborn"; (2) a declaratory judgment that the Exceptions
"are unconstitutional and unenforceable in all of their applications and on their
face"; (3) a declaratory judgment "that [Doe] and minor children who are unborn
have the right to a guarantee of equal protection, substantive due process, and life
under the Fourteenth and Fifth Amendments to the United States Constitution and
shall not be deprived of these rights"; and (4) any other relief the court deems
proper. Aplt. App. at 24.
C. Principles of Article III Standing
"[T]he core component of standing is an essential and unchanging part of the
case-or-controversy requirement of Article III." Lujan v. Defenders of Wildlife, 504
U.S. 555, 560 (1992). Standing has three elements: (1) an injury in fact, (2) that
"fairly can be traced to the challenged action of the defendant, and has not resulted
from the independent action of some third party not before the court," and (3) that
is likely to be redressed by a favorable decision. Ne. Fla. Chapter of Associated Gen.

2

The § 1983 claim relies on the same constitutional provisions as the other claims. For convenience,

we consider the claims as substantive due process and equal protection claims, without separately
discussing § 1983. --------

5a
Contractors of Am. v. City of Jacksonville, 508 U.S. 656, 663-64 (1993) (internal
quotation marks omitted).
"[W]e assess standing as of the time a suit is filed." Clapper v. Amnesty Int'l
USA, 568 U.S. 398, 426 (2013). "Standing is not dispensed in gross. Rather, a
plaintiff must demonstrate standing for each claim he seeks to press and for each
form of relief that is sought." Davis v. Fed. Election Comm'n, 554 U.S. 724, 734
(2008) (citation, brackets, and internal quotation marks omitted). It is Doe's burden
to establish her standing. See Lujan, 504 U.S. at 561.
This case was decided at the Fed. R. Civ. P. 12 motion-to-dismiss stage. "[A]t
the pleading stage, the plaintiff must clearly allege facts demonstrating each
element [of standing]." Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (ellipsis
and internal quotation marks omitted). "[B]oth the trial and reviewing courts must
accept as true all material allegations of the complaint, and must construe the
complaint in favor of the complaining party." United States v. Supreme Court of
N.M., 839 F.3d 888, 899 (10th Cir. 2016) (internal quotation marks omitted).
D. The District Court's Ruling
The district court held that Doe failed to show any of the requirements of
standing. It first held that Doe had "not alleged any facts supporting the conclusion
that the threat of injury to [her] is both real and immediate, not conjectural or
hypothetical." Aplt. App. at 95 (internal quotation marks omitted). Noting that the
complaint used the term "could"—that Doe could be subjected to an abortion—the
district court stated that "the Complaint is conspicuously silent as to the actual

6a
intent of [Doe's] mother to seek an abortion. Nowhere does the Complaint allege
that [Doe's] mother is seeking to or is likely to terminate her pregnancy." Id.
Accordingly, the court concluded that Doe's alleged injuries were hypothetical and
dependent upon the choices made by her mother, an independent actor who was not
before the court.
The district court further stated that even if it were to assume an injury in
fact, Doe could not establish traceability or redressability. It pointed out that the
federal exception itself does not authorize abortions. Instead, it is Supreme Court
precedent that protects a woman's right to choose to abort a non-viable fetus."
[Doe's] asserted injury is not fairly traceable to [§ 1841(c)], and the injunctive and
declaratory relief she seeks concerning [§ 1841(c)] would not prevent her mother
from legally obtaining an abortion under Roe and Casey." Aplt. App. at 96. Further,
Oklahoma also is bound by Roe and Casey, and whatever its fetal-homicide
provisions, they would be unenforceable as to legal abortions.
Doe had argued that her situation should be analogized to pre-enforcement
standing, whereby a plaintiff need not expose herself to liability by violating an
allegedly unconstitutional law before challenging it in court. The district court
rejected this theory, stating that "there is no threatened action by the state or
federal government in this case, and [Doe] is not exposed to liability under the
challenged statutory provisions. The reasoning behind pre-enforcement standing
does not apply to [Doe's] claims." Id. at 97.

7a

II. DISCUSSION
Our review of a plaintiff's Article III standing is de novo. See Benham v.
Ozark Materials River Rock, LLC, 885 F.3d 1267, 1272 (10th Cir.), cert. denied, 139
S. Ct. 174 (2018). Doe has failed to show an injury in fact or traceability for her
substantive due process claims, and she has failed to show traceability for her equal
protection claims. Accordingly, we affirm the district court's dismissal for lack of
Article III standing without needing to consider redressability.
A. Injury in Fact
To establish injury in fact, Doe must show she suffered "an invasion of a
legally protected interest" that is "concrete and particularized" and "actual or
imminent, not conjectural or hypothetical." Lujan, 504 U.S. at 560 (internal
quotation marks omitted). "For an injury to be 'particularized,' it must affect the
plaintiff in a personal and individual way." Spokeo, Inc., 136 S. Ct. at 1548 (internal
quotation marks omitted). "A concrete injury must be de facto; that is, it must
actually exist. When we have used the adjective 'concrete,' we have meant to convey
the usual meaning of the term—real, and not abstract." Id. (citation and internal
quotation marks omitted). And while "imminence" is a "somewhat elastic concept,"
"it cannot be stretched beyond its purpose, which is to ensure that the alleged injury
is not too speculative for Article III purposes—that the injury is certainly
impending." Lujan, 504 U.S. at 564 n.2 (internal quotation marks omitted).

8a
Allegations of possible future injury do not establish an injury in fact. See Clapper,
568 U.S. at 409; Whitmore v. Arkansas, 495 U.S. 149, 158 (1990).
"[S]tanding is affected by the nature of the relief sought." Baca v. Colo. Dep't
of State, 935 F.3d 887, 909 (10th Cir. 2019), petition for cert. filed (U.S. Oct. 16,
2019) (No. 19-518). Doe seeks injunctive relief rather than damages. "To obtain
prospective relief, a plaintiff must show a credible threat of future harm." Id. at 910;
see also Tandy v. City of Wichita, 380 F.3d 1277, 1283 (10th Cir. 2004) (stating that
when a plaintiff seeks prospective relief, he or she "must be suffering a continuing
injury or be under a real and immediate threat of being injured in the future").
1. Substantive Due Process Claims
Doe's substantive due process claims allege that she is being deprived of her
rights to life, liberty, and bodily integrity. But as the district court pointed out, the
complaint does not establish that Doe's mother ever sought an abortion or even had
any intention of doing so. The complaint uses the terms "could" and "can" to
describe the harm to life and liberty that Doe allegedly faces. These allegations do
not establish a concrete, particularized injury that is actual, imminent, or certainly
impending. See Clapper, 568 U.S. at 410 (holding that allegations that the
government could intercept plaintiffs' communications were speculative and
insufficient to establish injury in fact); 15 Moore's Federal Practice, § 101.40[4][b][i]
(Matthew Bender 3d Ed.) (recognizing that "[s]tanding may also be denied on the
ground that the injury is only hypothetical in the sense that the plaintiff could have
been injured, but was not").

9a
Rather, this case appears more analogous to Diamond v. Charles, 476 U.S.
54, 66-67 (1986), in which the Supreme Court held that "Article III requires more
than a desire to vindicate value interests. It requires an injury in fact that
distinguishes a person with a direct stake in the outcome of a litigation—even
though small— from a person with a mere interest in the problem." (citation and
internal quotation marks omitted). "Diamond's claim of conscientious objection to
abortion [did] not provide a judicially cognizable interest." Id. at 67.
Doe argues that a "substantial risk" of injury is sufficient, see Susan B.
Anthony List v. Driehaus, 573 U.S. 149, 158 (2014) ("An allegation of future injury
may suffice if the threatened injury is certainly impending, or there is a substantial
risk that the harm will occur." (internal quotation marks omitted)), and she asserts
that the fact that her mother could seek an abortion at any time establishes such a
"substantial risk" to her life and liberty. Like Doe's other allegations, this argument
requires hypothesizing about what Doe's mother "could" do. But hypotheticals do
not establish that Doe is subject to any risk, much less a substantial risk, that her
mother will seek an abortion. Accordingly, this argument similarly falls short of
establishing an injury in fact.
Doe also renews her analogy to pre-enforcement standing. The Supreme
Court has noted that "[o]ne recurring issue in [its] cases is determining when the
threatened enforcement of a law creates an Article III injury. When an individual is
subject to such a threat, an actual arrest, prosecution, or other enforcement action
is not a prerequisite to challenging the law." Id.

10a
Instead, we have permitted pre-enforcement review under
circumstances that render the threatened enforcement sufficiently
imminent. Specifically, we have held that a plaintiff satisfies the
injury-in-fact requirement where he alleges an intention to engage in a
course of conduct arguably affected with a constitutional interest, but
proscribed by a statute, and there exists a credible threat of
prosecution thereunder.
Id. at 159 (internal quotation marks omitted). "[A] 'credible' threat of
prosecution [is] one that arises from an objectively justified fear of real
consequences." Bronson v. Swensen, 500 F.3d 1099, 1107 (10th Cir. 2007) (internal
quotation marks omitted).
As Doe argues, pre-enforcement standing recognizes that a plaintiff should
not have to incur a grave injury before seeking vindication of a legal interpretation.
See MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118, 134 (2007) ("The rule that a
plaintiff must destroy a large building, bet the farm, or (as here) risk treble
damages and the loss of 80 percent of its business before seeking a declaration of its
actively contested legal rights finds no support in Article III."). But Doe is not being
faced with a choice or being asked to "bet the farm" on anything; she simply is
trying to assert the Exceptions are unconstitutional. There is no reason why the
traditional requirements for showing injury in fact are not adequate for these
circumstances. Moreover, for the same reason she fails to show injury in fact as to
her due process claims, Doe fails to satisfy the "credible threat" aspect of preenforcement standing.
2. Equal Protection Claims

11a
In contrast, for equal protection claims, the injury is the denial of equal
treatment. See Ne. Fla. Chapter, 508 U.S. at 666; Citizen Ctr. v. Gessler, 770 F.3d
900, 913 (10th Cir. 2014); Petrella v. Brownback, 697 F.3d 1285, 1294 (10th Cir.
2012); Am. Civil Liberties Union of N.M. v. Santillanes, 546 F.3d 1313, 1319 (10th
Cir. 2008). In light of this precedent, Doe's averments that she is being
discriminated against and denied the same protections as born human beings and
other unborn human beings sufficiently allege an injury in fact.
B. Traceability
"To satisfy the traceability requirement, the defendant's conduct must have
caused the injury." Benham, 885 F.3d at 1273 (citing Lujan, 504 U.S. at 560). The
plaintiff must show that "the injury fairly can be traced to the challenged action of
the defendant, and has not resulted from the independent action of some third party
not before the court." Ne. Fla. Chapter, 508 U.S. at 663 (internal quotation marks
omitted). "Although the traceability of a plaintiff's harm to the defendant's actions
need not rise to the level of proximate causation, Article III does require proof of a
substantial likelihood that the defendant's conduct caused plaintiff's injury in fact."
Habecker v. Town of Estes Park, 518 F.3d 1217, 1225 (10th Cir. 2008) (internal
quotation marks omitted).
1. Substantive Due Process Claims
While Doe ostensibly challenges the Exceptions as a violation of her
substantive due process rights, it is inescapable that any injuries to life, liberty, or
bodily integrity she may suffer flow not from the Exceptions, but from Roe and

12a
Casey. Accordingly, Doe has failed to establish that her alleged substantive due
process injuries are traceable to the Exceptions.
2. Equal Protection Claims
Finally, Doe argues that the statutes themselves discriminate and deny equal
treatment. Again, however, it is apparent that Doe's real quarrel is with Roe and
Casey. If any equal protection injury exists, it does not come from the United States
and Oklahoma enacting the Exceptions, but rather from Roe and Casey. Doe
therefore has failed to establish any injury is sufficiently traceable to the
defendants to provide standing to challenge the Exceptions.
CONCLUSION
The district court's judgment is affirmed.
Entered for the Court
Timothy M. Tymkovich
Chief Judge

13a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
OKLAHOMA
JANE DOE, a minor child who is unborn,
by and through her father and next friend,
John Doe,

CIVIL ACTION

Plaintiff

v.

1. MIKE HUNTER, in his official capacity as
Oklahoma Attorney General; 2. MARY
FALLIN, in her official capacity as Oklahoma
Governor; 3. MATTHEW G. WHITAKER, in
his official capacity as Acting U.S. Attorney
General; 4. U.S. DEPARTMENT OF JUSTICE;
and 5. THE UNITED STATES OF AMERICA,

NO. 18-cv-408-JED-FHM

Defendants.
OPINION AND ORDER
DOWDELL, J.

NOVEMBER 30, 2018

The Complaint (Doc. 2) in this case was brought by Jane Doe, an unborn
child, by and through her father and next friend, John Doe.1 Plaintiff asserts
constitutional claims challenging specific state and federal laws that, she argues,
"sanction and protect the killing of one class of innocent human beings." (Doc. 2 at ¶
1). Specifically, she challenges what she calls the "Primary Exceptions"—provisions
in Oklahoma's fetal homicide laws and the federal Unborn Victims of Violence Act

1

Plaintiff has submitted a separate Motion to File and Proceed Anonymously (Doc. 4). Because the

Court ultimately finds that Plaintiff lacks standing to bring her claims, this separate motion is
rendered moot.

14a
(UVVA) that make exceptions for legally obtained abortions. See Okla . Stat. tit. 21,
§§ 652(D), 691(C); 18 U.S.C. § 1841(c). She seeks both injunctive and declaratory
relief against Defendants Mike Hunter and Mary Fallin ("the Oklahoma
Defendants"), as well as Matthew G. Whitaker2, the U.S. Department of Justice,
and the United States of America ("the Federal Defendants"). The Court now has
for its consideration the Oklahoma Defendants' Motion to Dismiss (Doc. 8) and the
Federal Defendants' Motion to Dismiss (Doc. 15). Both sets of defendants assert
that Plaintiff has failed to establish standing to bring her claims.
I. Legal Standards
"Article III . . . gives the federal courts jurisdiction over only 'cases and
controversies,' and the doctrine of standing serves to identify those disputes which
are appropriately resolved through the judicial process." Whitmore v. Arkansas, 495
U.S. 149, 154-55 (1990). The Supreme Court has outlined three elements that
constitute "the irreducible constitutional minimum of standing." Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560-61 (1992). In order to have standing, a plaintiff must
show "(1) [she] has suffered an "injury in fact" that is (a) concrete and particularized
and (b) actual or imminent, not conjectural or hypothetical; (2) the injury is fairly

2

The Court is aware that Jefferson B. Sessions, III, is no longer the U.S. Attorney General. Pursuant

to Fed. R. Civ. P. 25(d), when a public officer who is a party in an official capacity ceases to hold
office, the officer's successor shall be substituted as a party. The new Acting U.S. Attorney General,
Matthew G. Whitaker, is hereby substituted in place of Mr. Sessions. The Court Clerk shall note
such substitution on the docket.

15a
traceable to the challenged action of the defendant; and (3) it is likely, as opposed to
merely speculative, that the injury will be redressed by a favorable decision."
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180
(2000). Importantly, "[t]he party invoking federal jurisdiction bears the burden of
establishing these elements." Lujan, 504 U.S. at 561.
The injury-in-fact requirement "helps to ensure that the plaintiff has a
'personal stake in the outcome of the controversy.'" Susan B. Anthony List v.
Driehaus, 573 U.S. 149, 134 S. Ct. 2334, 2341 (2014) (quoting Warth v. Seldin, 422
U.S. 490, 498 (1975)). To meet this requirement, a plaintiff "must show that [she]
has sustained or is immediately in danger of sustaining some direct injury as the
result of the challenged official conduct and the injury or threat of injury must be
both real and immediate, not conjectural or hypothetical." City of Los Angeles v.
Lyons, 461 U.S. 95, 101-02 (1983) (internal quotation marks omitted). "Abstract
injury is not enough." Id. at 101. If a plaintiff alleges future injury, such threatened
injury must be "certainly impending," or there must at least be a "substantial risk"
that the harm will occur. Driehaus, 134 S. Ct. at 2341 (quoting Clapper v. Amnesty
Int'l USA, 568 U.S. 398, 414 n.5 (2013)). "Plaintiffs cannot rely on speculation about
'the unfettered choices made by independent actors not before the court." Clapper,
468 U.S. at 414 n.5 (quoting Lujan, 504 U.S. at 562).
II. Discussion
The Complaint asserts that Plaintiff is "under an ever-present and imminent
threat of a violent loss of her right to life and right to bodily integrity." (Doc. 2 at ¶

16a
1). However, she has not alleged any facts supporting the conclusion that the threat
of injury to Plaintiff is "both real and immediate, not conjectural or hypothetical."
See Lyons, 461 U.S. at 102 (internal quotations marks omitted). The Complaint
states that Plaintiff "could be subjected at any moment to the deprivation of her
right to life by any doctor hired by her mother," that her "life could be taken
through abortion for any reason, at any time, until she reaches 22 weeks gestation,"
and that she "could also be killed through abortion in multiple locations around the
nation up until she reaches 40 weeks gestation." (Doc. 2 at ¶¶ 17, 18, 19) (emphasis
added). Yet, the Complaint is conspicuously silent as to the actual intent of
Plaintiff's mother to seek an abortion. Nowhere does the Complaint allege that
Plaintiff's mother is seeking to or is likely to terminate her pregnancy. As such,
Plaintiff's alleged injury is merely hypothetical and wholly dependent upon "the
unfettered choices made by [an independent actor] not before the court." See Lujan,
504 U.S. at 562. Such a hypothetical injury does not give Plaintiff standing to sue.
Even were the Court to assume an injury-in-fact, Plaintiff cannot show that her
asserted injury is fairly traceable to the Primary Exceptions, nor can she show that
her asserted injury is redressable through the relief she seeks.
First of all, it bears noting that the federal UVVA is not a general homicide
provision; instead, it describes the federal offense of causing the "death of, or bodily
injury . . . to, a child, who is in utero" during the commission of one of approximately
60 federal crimes. 18 U.S.C. § 1841(a)(1). Although the UVVA contains an exception
for abortions and for women, generally, in respect to their own unborn children,

17a
these exceptions themselves do not authorize abortions. See § 1841(c)(1), (3).
Instead, under binding U.S. Supreme Court precedent, the U.S. Constitution "offers
basic protection to the woman's right to choose." Stenberg v. Carhart, 530 U.S. 914,
921 (2000) (citing Roe v. Wade, 410 U.S. 113, 153 (1973), Planned Parenthood of Se.
Pa. v. Casey, 505 U.S. 833 (1992)).3 Plaintiff's asserted injury is not fairly traceable
to the UVVA, and the injunctive and declaratory relief she seeks concerning the
UVVA would not prevent her mother from legally obtaining an abortion under Roe
and Casey.
Similarly, Plaintiff cannot fairly trace her alleged injury to the exceptions in
Oklahoma's fetal homicide laws. The Oklahoma Defendants are bound by Roe and
Casey to permit abortions in certain circumstances. Regardless of the Primary
Exceptions, the state's fetal homicide laws are unenforceable as to legal abortions.
Although Plaintiff argues that the Oklahoma Defendants "must be responsible for
their own laws," (Doc. 16 at 4), the U.S. Constitution is the "the supreme law of the
land," and Supreme Court precedent interpreting the Constitution must be followed
by the states. U.S. Const. art. VI, cl. 2; see also Martin v. Hunter's Lessee, 14 U.S.
304 (1816), Cohens v. Virginia, 19 U.S. 264 (1821).

3

Plaintiff claims that she "has brought suit directly under the Fifth Amendment, separate and apart

from the UVVA." (Doc. 17 at 2). However, the Complaint alleges no unconstitutional act on the part
of the Federal Defendants apart from the Primary Exceptions in the UVVA. (See, e.g., Doc. 2 at ¶¶ 25). --------

18a
In her response to the Federal Defendants' dismissal motion, Plaintiff argues
that her situation should be analogized to pre-enforcement standing. (Doc. 17 at 78). In MedIummune, Inc. v. Genentech, Inc., one of the cases cited by Plaintiff, the
Supreme Court recognized that "where threatened action by government is
concerned, we do not require a plaintiff to expose himself to liability before bringing
suit to challenge the basis for the threat—for example, the constitutionality of a law
threatened to be enforced." 549 U.S. 118, 128-129 (2007) (emphasis in original). The
circumstances described in MedImmune are simply not relevant here; there is no
threatened action by the state or federal government in this case, and Plaintiff is
not exposed to liability under the challenged statutory provisions. The reasoning
behind pre-enforcement standing does not apply to Plaintiff's claims.
Plaintiff also argues that the Court should be "generous" in considering her
standing. (See Doc. 17 at 8-9). The Court declines Plaintiff's invitation to loosen the
constitutional standing requirements for her case. As stated above, federal courts
have limited jurisdiction, and this Court may not overlook the well-established
requirements for a "case and controversy" in order to hear a case out of "fairness."
For the foregoing reasons, the Oklahoma Defendants' Motion to Dismiss (Doc. 8)
and the Federal Defendants' Motion to Dismiss (Doc. 15) are hereby granted.
Plaintiff's Motion for Permanent Injunction (Doc. 6) is denied, and her Motion to
File and Proceed Anonymously (Doc. 4) is moot. Plaintiff's claims are dismissed
without prejudice. A separate judgment will be entered forthwith.

19a
ORDERED this 30th day of November, 2018.
/s/_________
JOHN E. DOWDELL
UNITED STATES DISTRICT JUDGE

20a
FILED
February 24, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
______________
No. 19-5005
______________
JANE DOE, minor child who is unborn, by and
through her father and next friend, John Doe,
Plaintiff-Appellant
v.
MIKE HUNTER, in his official capacity as
Oklahoma Attorney General, et al.,
Defendants - Appellees.
________________
On Appeal from the United States District Court
for the Northern District of Oklahoma
District Court No. 4:18-cv-00408-JED-FHM
___________________
ORDER
____________________

Before TYMKOVICH, Chief Judge, KELLY and HARTZ, Circuit Judges.

21a

Appellant’s petition for panel rehearing is denied.

Entered for the Court
s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT, Clerk

22a
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

March 03, 2020

Jane K. Castro
Chief Deputy Clerk

Mr. Mark C. McCartt
United States District Court for the Northern District of Oklahoma
333 West 4th Street, Room 411
Tulsa, OK 74103
RE: 19-5005, Doe v. Hunter, et al
Dist/Ag docket: 4:18-CV-00408-JED-FHM
Dear Clerk:
Pursuant to Federal Rule of Appellate Procedure 41, the Tenth Circuit's mandate in
the above-referenced appeal issued today. The court's December 6, 2019 judgment
takes effect this date.
Please contact this office if you have questions.
Sincerely,
s/ Christopher M. Wolpert
Christopher M. Wolpert
Clerk of the Court

23a
cc:

Kristine L. Brown
Mithun Mansinghani
Cathryn Dawn McClanahan
Daniel Clarence Nunley
Zachary Paul West

CMW/djd

24a
18 U.S.C. § 1841
Protection of Unborn Children
(a)(1) Whoever engages in conduct that violates any of the provisions of law listed in
subsection (b) and thereby causes the death of, or bodily injury (as defined in section
1365) to, a child, who is in utero at the time the conduct takes place, is guilty of a
separate offense under this section.
(2)(A) Except as otherwise provided in this paragraph, the punishment for that
separate offense is the same as the punishment provided under Federal law for that
conduct had that injury or death occurred to the unborn child's mother.
*******
(C) If the person engaging in the conduct thereby intentionally kills or attempts to
kill the unborn child, that person shall instead of being punished under
subparagraph (A), be punished as provided under sections 1111, 1112, and 1113 of
this title for intentionally killing or attempting to kill a human being.
*******
(b) The provisions referred to in subsection (a) are the following:
(1) Sections 36, 37, 43, 111, 112, 113, 114, 115, 229, 242, 245, 247, 248, 351,
831, 844(d), (f), (h)(1), and (i), 924(j), 930, 1111, 1112, 1113, 1114, 1116, 1118,
1119, 1120, 1121, 1153(a), 1201(a), 1203, 1365(a), 1501, 1503, 1505, 1512,
1513, 1751, 1864, 1951, 1952 (a)(1)(B), (a)(2)(B), and (a)(3)(B), 1958, 1959,
1992, 2113, 2114, 2116, 2118, 2119, 2191, 2231, 2241(a), 2245, 2261, 2261A,
2280, 2281, 2332, 2332a, 2332b, 2340A, and 2441 of this title.

25a
(2) Section 408(e) of the Controlled Substances Act of 1970 (21 U.S.C. 848(e)).
(3) Section 202 of the Atomic Energy Act of 1954 (42 U.S.C. 2283).
(c) Nothing in this section shall be construed to permit the prosecution—
(1) of any person for conduct relating to an abortion for which the consent of
the pregnant woman, or a person authorized by law to act on her behalf, has
been obtained or for which such consent is implied by law;
(2) of any person for any medical treatment of the pregnant woman or her
unborn child; or
(3) of any woman with respect to her unborn child.
(d) As used in this section, the term “unborn child” means a child in utero, and the
term “child in utero” or “child, who is in utero” means a member of the species homo
sapiens, at any stage of development, who is carried in the womb.

26a
21 OK Stat § 21-652
Shooting or discharging firearm with intent to kill - Use of vehicle to
facilitate discharge of weapon in conscious disregard of safety of others Assault and battery with deadly weapon, etc.
A. Every person who intentionally and wrongfully shoots another with or discharges
any kind of firearm, with intent to kill any person, including an unborn child as
defined in Section 1-730 of Title 63 of the Oklahoma Statutes, shall upon conviction
be guilty of a felony punishable by imprisonment in the State Penitentiary not
exceeding life.
B. Every person who uses any vehicle to facilitate the intentional discharge of any
kind of firearm, crossbow or other weapon in conscious disregard for the safety of
any other person or persons, including an unborn child as defined in Section 1-730
of Title 63 of the Oklahoma Statutes, shall upon conviction be guilty of a felony
punishable by imprisonment in the custody of the Department of Corrections for a
term not less than two (2) years nor exceeding life.
C. Any person who commits any assault and battery upon another, including an
unborn child as defined in Section 1-730 of Title 63 of the Oklahoma Statutes, by
means of any deadly weapon, or by such other means or force as is likely to produce
death, or in any manner attempts to kill another, including an unborn child as
defined in Section 1-730 of Title 63 of the Oklahoma Statutes, or in resisting the
execution of any legal process, shall upon conviction be guilty of a felony punishable
by imprisonment in the State Penitentiary not exceeding life.

27a
D. The provisions of this section shall not apply to:
1. Acts which cause the death of an unborn child if those acts were committed
during a legal abortion to which the pregnant woman consented; or
2. Acts which are committed pursuant to usual and customary standards of medical
practice during diagnostic testing or therapeutic treatment.
E. Under no circumstances shall the mother of the unborn child be prosecuted for
causing the death of the unborn child unless the mother has committed a crime that
caused the death of the unborn child.

28a
21 OK Stat § 21-691
Homicide defined.
A. Homicide is the killing of one human being by another.
B. As used in this section, “human being” includes an unborn child, as defined in
Section 1-730 of Title 63 of the Oklahoma Statutes.
C. Homicide shall not include:
1. Acts which cause the death of an unborn child if those acts were committed
during a legal abortion to which the pregnant woman consented; or
2. Acts which are committed pursuant to the usual and customary standards of
medical practice during diagnostic testing or therapeutic treatment.
D. Under no circumstances shall the mother of the unborn child be prosecuted for
causing the death of the unborn child unless the mother has committed a crime that
caused the death of the unborn child.

63 OK Stat § 63-1-730
Definitions.
*******
4. "Unborn child" means the unborn offspring of human beings from the moment of
conception, through pregnancy, and until live birth including the human conceptus,
zygote, morula, blastocyst, embryo and fetus;
*******

